 DOE/IG-0568




                              REMOTE ACCESS TO UNCLASSIFIED
          AUDIT                   INFORMATION SYSTEMS
         REPORT




                                          SEPTEMBER 2002




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                   U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                           September 13, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Remote Access to Unclassified
                          Information Systems"

BACKGROUND

Like most private sector and government organizations, the Department of Energy has an
aggressive program to provide its Federal and contractor personnel with the ability to remotely
access a number of unclassified information systems. Such access allows travelers,
telecommuters and those who occasionally work off-site to more easily perform business-
related functions from remote locations. Personnel are able, for example, to retrieve electronic
mail, access business or other operational systems and administer systems or networks by
using government or privately-owned computer equipment. Generally, remote access to the
Department's networks is achieved through dial-in modems or through internet connections.

While the benefits of such access are clear, there is a corresponding increase in certain inherent
risks, most importantly, the potential for unauthorized access to the Department's information
systems. Based on several recent investigative cases relating to attempts to intrude into the
Department's systems, we initiated this audit designed to assess the Department's performance
in managing the risk associated with remote access to unclassified information systems.

RESULTS OF AUDIT

The majority of the offices we reviewed had not adequately protected information systems
from unauthorized remote access. Although we found several offices which had implemented
effective risk-mitigation strategies, of the 13 organizations included in our review:

   •   Ten had not considered the risk associated with remote access when developing cyber
       security protection plans;
   •   Nine had not developed specific guidance addressing remote access security
       requirements; and,
   •   Nine had not required the use of protective measures such as personal firewalls, and
       up-to-date virus protection and systems software when accessing network resources.

Inadequate protective measures over remote access placed the Department's critical
unclassified information systems at risk of data tampering, fraud, disruptions in critical
operations, and inappropriate disclosure of sensitive or Privacy Act information. We
                                              -2-


concluded that the Department needs to better enforce requirements for risk assessments,
provide additional guidance for security implementation and evaluation, and establish
performance measures related to remote access risk mitigation. The report includes
recommendations to implement these actions.

In our Special Report on Management Challenges at the Department of Energy, (DOE/IG-
0538, December 2001), we concluded that security of cyber assets is one of the most
significant challenges facing the Department. Systematic development and implementation of
computer security is essential to mitigating the risk of compromise to the Department's critical
information technology resources.

Specific information regarding programs and sites reviewed has been omitted from this report
because of security concerns. Cognizant officials were provided information on specific
vulnerabilities identified during our audit fieldwork.

MANAGEMENT REACTION

Management agreed with our recommendations and indicated that certain corrective actions
were in process or had been completed. In response to our report, management pledged to
implement a new security directive, implementing guidance and to improve security planning.
Also, management stated that direction had been given to specifically address remote access
security during the self-assessment process.


Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Acting Administrator, National Nuclear Security Administration
    Assistant Secretary for Environmental Management
    Assistant Secretary for Fossil Energy
    Director, Office of Science
    Director, Office of Security
    Director, Office of Management, Budget and Evaluation/Chief Financial Officer
    Administrator, Energy Information Administration
    Chief Information Officer
REMOTE ACCESS TO UNCLASSIFIED INFORMATION SYSTEMS

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .................................................................... 1

               Conclusions and Observations .............................................................. 1


               Remote Access Related Performance Issues

               Details of Finding .................................................................................. 3

               Recommendations and Comments ........................................................ 6


               Appendices

               Scope and Methodology ........................................................................ 8

               Prior Reports ......................................................................................... 9

               Management Comments ...................................................................... 11
Overview

INTRODUCTION AND   In today's environment, rapid advances in information technology are
OBJECTIVE          credited with generating tremendous benefits as well as creating
                   significant and unprecedented risk to government operations. As a
                   result, computer security has become a critical element at all levels of
                   government.

                   To facilitate business operations, the Department of Energy
                   (Department) and its contractors provide employees the ability to
                   remotely access a number of unclassified information systems. Such
                   access offers travelers, telecommuters, and those who occasionally
                   work off-site or at home the convenience and ability to perform
                   business-related functions from a remote location. Personnel are able to
                   retrieve electronic mail, access business or other operational systems, or
                   administer systems or networks by using government or privately-
                   owned computing equipment. Remote access to the Department's
                   networks is achieved through various methods such as dial-in modems,
                   commercial high-speed Internet services, and other Internet procedures.

                   As more organizations permit remote access to their networks,
                   complexities associated with protecting information systems increase
                   exponentially. Because the Department's unclassified network is
                   logically connected to a common wide area network and linked to
                   Headquarters and virtually all organizations in the complex, the
                   potential for harm from a single system compromise is significant.

                   We initiated this audit to assess the Department's performance in
                   managing the risk associated with remote access of unclassified
                   information systems.


CONCLUSIONS AND    While certain organizations had implemented protective measures, the
OBSERVATIONS       Department's performance in mitigating the risk associated with remote
                   access to unclassified information systems was not adequate. Programs
                   or sites we reviewed had not (1) considered the risk associated with
                   remote access when preparing security plans, (2) developed specific
                   guidance for remote access security, and (3) required protective
                   measures such as personal firewalls and virus protection software.

                   Federal and Departmental directives require organizations to
                   continually assess the risk to computer systems and maintain security
                   commensurate with that risk. Despite these requirements,
                   vulnerabilities existed because Departmental organizations had not
                   focused sufficient attention on the risk of harm associated with remote


Page 1                                                       Introduction and Objective/
                                                          Conclusions and Observations
         access. Inadequate protective measures placed the Department's critical
         unclassified information systems at risk of attack from internal and
         external sources and could ultimately result in data tampering, fraud,
         disruptions in critical operations, and inappropriate disclosure of
         sensitive or Privacy Act information. Adequate protection against these
         adverse consequences is important to meeting the President's
         management agenda initiative regarding the use of information
         technology to improve government operations.

         Management should consider the issues identified in this report when
         preparing its year-end assurance memorandum on internal controls.




                                                    (Signed)
                                             Office of Inspector General




Page 2                                        Conclusions and Observations
Remote Access Related Performance Issues

Planning and          We reviewed the remote access security strategies of 13 program office
Protective Measures   or site organizations. Although certain of these organizations had
                      implemented protective measures, many had not developed and
                      implemented strategies sufficient to mitigate the risk associated with
                      remote access to their unclassified information systems. While most
                      organizations had developed security plans and cyber security
                      guidance, related documentation often did not specifically address risks
                      or requirements associated with remote access. Where implemented,
                      protective measures for remote access varied widely in scope and
                      effectiveness.

                                 Security Planning and Implementation Guidance

                      Most organizations did not perform or had not documented a risk-based
                      approach to identifying remote access threats or specifying protective
                      measures. Of the 13 organizations reviewed, only 4 provided a
                      documented assessment of risk and only 3 of those assessments
                      addressed remote access. In particular, we noted that one organization
                      providing centrally managed network and remote access services to a
                      number of program offices had not performed a risk assessment or
                      specified protective measures even though participating organizations
                      relied on it for security administration.

                      Consistent with the lack of risk assessments, many of the organizations
                      we reviewed had also not developed specific guidance addressing
                      remote access security requirements. Of the sites or program offices
                      reviewed, we noted that only 4 of 13 had developed guidance that
                      specifically addressed protective requirements for remote access. In
                      contrast, most organizations had developed and implemented extensive
                      security procedures governing access to information systems through
                      internal resources.

                                            Protective Measures

                      While most organizations required at least some level of protection on
                      Department-owned computers, requirements for remote access using
                      privately-owned equipment was less stringent or non-existent. Of the
                      13 organizations we reviewed, only 4 had implemented protective
                      measures that were substantially consistent with Federal standards.




Page 3                                                                     Details of Finding
                           Specifically, many users were not required to use protective measures
                           such as personal firewalls, virus protection software, and up-to-date
                           systems software when accessing network resources. While most
                           organizations required installation of anti-virus software, only two
                           required virus definitions to be current prior to connecting remotely.
                           Other than cyber security refresher training, organizations generally did
                           not provide security awareness training related to remote access. The
                           use of hardware-based protections such as one-time password
                           generators, a protective measure that minimizes the risk of additional
                           damage should other measures be compromised, were required by only
                           two of the organizations we visited. Without such measures, each
                           remote connection or session exposed the Department's networks to
                           attack by malicious users.

                           In contrast, one program office we reviewed had well-developed remote
                           access security procedures. This office independently managed its
                           network service and aggressively enforced protective requirements.
                           Remote users were required to attend remote security awareness
                           training and sign a user accountability form prior to being granted
                           access. Users were provided with security features without regard to
                           whether the remote machines were Department or privately-owned.
                           Prior to permitting network access, automated techniques were used to
                           access the remote equipment and verify that the necessary security
                           features had been correctly installed. This organization regarded
                           remote access as a privilege and terminated the service of users who did
                           not maintain adequate protective measures.

Requirements for Risk      Federal and Departmental directives require organizations to
Based Security and         continually assess the risk to computer systems and maintain security
Remote Access Protection   commensurate with that risk and consistent with standards. For
                           instance, the Government Information Security Reform Act of 2000 and
                           Office of Management and Budget (OMB) Circular A-130 require
                           agencies to adopt a risk-based, life cycle approach to improving
                           computer security. Specifically, agency security planning should
                           establish acceptable levels of risk and rules covering such matters as
                           work at home, individual accountability, awareness training, dial-in
                           access, connection to the Internet, unofficial use of equipment,
                           assignment and limitation of system privileges; and periodically
                           reviewing security controls for adequacy. In addition, Departmental
                           directives, such as Department Notice 205.1 "Unclassified Computer
                           Security Program," require each organization to specify information
                           resources to be protected and protective mechanisms to be used to
                           ensure that all unclassified information resources under its purview are
                           protected in a manner that is consistent with threats to it and its
                           missions at all times.
Page 4                                                                          Details of Finding
                           The Department's cyber security architecture also requires that remote
                           access implementations impose security provisions consistent with
                           those imposed upon other on-site users. This guidance echoes the
                           recommendation by the Federal Computer Incident Response Center
                           that each remote user's system be afforded a minimum level of
                           protection consistent with that of the parent network, such as installing
                           and validating anti-virus software and updating operating system
                           security patches prior to allowing remote connection. The National
                           Institute of Standards and Technology (NIST) also recommended that a
                           personal firewall be used at all times on computers used for remote
                           access.

Attention to Remote        Departmental organizations had not focused sufficient attention on the
Access Security            risk of harm associated with remote access to unclassified information
                           systems. Although the Department had developed guidance addressing
                           remote access, many of the organizations focused the majority of their
                           protective measures on preventing Internet-based intrusions. The
                           insufficient focus of most organizations on remote access is
                           demonstrated, in part, by the fact that few organizations monitored
                           access activity or maintained detailed information such as type and
                           owner of equipment or levels and types of access granted. Most sites
                           also did not evaluate remote access security when performing periodic
                           oversight or self-assessment activities. Consistent with the overall lack
                           of focus in this area, organizations also had not developed specific
                           performance measures or metrics to measure progress. Where cyber
                           security related site or organization-level goals had been established,
                           most were non-specific and focused only on overall improvements in
                           the cyber security area. Because of the lack of attention, organizations
                           did not devote the resources necessary to assessing the risk associated
                           with remote access.

Unclassified Information   Inadequate protective measures placed the Department's critical
Systems                    unclassified information systems at risk of attack from internal and
                           external sources and could ultimately result in data tampering, fraud,
                           disruptions in critical operations, and inappropriate disclosure of
                           sensitive or Privacy Act information. In a recent report to management,
                           the Office of Inspector General disclosed that a malicious user was able
                           to gain access to an employee's government-owned laptop. This
                           occurred while the employee was remotely connected to the site's
                           network while simultaneously connected to his personal Internet
                           Service Provider (ISP) at his residence. The review identified
                           inadequate remote access controls and configuration management
                           requirements at the site that may have contributed to the compromise of
                           the laptop. In addition to directly endangering Departmental networks,

Page 5                                                                           Details of Finding
                  hackers gaining control of employees' computers could later monitor
                  remote access sessions and capture passwords or other sensitive data.
                  Without adequate attention to remote access security, the Department's
                  networks and information systems will continue to be subject to a
                  significant risk of compromise. As we have previously reported, the
                  failure to ensure the security and confidentiality of personal information
                  could subject employees to the risk of identity theft and intelligence
                  targeting and the Department to potential litigation.


RECOMMENDATIONS   To correct the specific vulnerabilities noted in this report, we
                  recommended that, for the sites and offices within their responsibility,
                  the Administrator, National Nuclear Security Administration; the
                  Assistant Secretaries for the Office of Environmental Management and
                  Office of Fossil Energy; and the Director, Office of Science:

                     1. Require sites which have not assessed risk or developed and
                        implemented protective measures to do so immediately; and,

                     2. Require sites or offices to issue clear guidance for remote access
                        services consistent with Federal, Departmental, and the NIST
                        requirements for remote access security.

                  To enhance overall security for remote access to unclassified
                  information systems, we recommend that the Director, Office of
                  Security work with the Chief Information Officer to:

                     3. Reemphasize the requirement for organizations to perform
                        formal risk assessments and to develop and implement
                        protective measures commensurate with the assessed level of
                        risk;

                     4. Require that remote access security be specifically evaluated
                        during the security self-assessments required by the Government
                        Information Security Act of 2000; and,

                     5. Establish specific, quantifiable performance measures for
                        improving remote access services controls and include them in
                        the Department's Cyber Security Metrics program and the
                        organization's Annual Performance Plan.




Page 6                                              Recommendations and Comments
MANAGEMENT REACTION   The Administrator, National Nuclear Security Administration; Assistant
                      Secretaries for the Office of Environmental Management and Office of
                      Fossil Energy; and the Director, Office of Science, Director, Office of
                      Security; and Chief Information Officer concurred with our
                      recommendations. Management indicated that certain corrective
                      actions were in process or had been completed. Management
                      specifically pledged to develop new security policy, associated
                      implementing guidance, and to improve security planning. Program
                      level management pointed out that Departmental policy direction was
                      required to effectively address remote access issues raised in the report.
                      Also, management stated that direction had been given to specifically
                      address remote access security during the self assessment-process.
                      Finally, management noted that although performance measures are the
                      responsibility of each program office, the requirement for such
                      measures will be established in new Departmental directive and
                      guidance. Management’s comments are attached as Appendix 3.


AUDITOR COMMENTS      We consider management's comments and actions responsive to our
                      recommendations and the issues addressed in our report.




Page 7                                                  Recommendations and Comments
Appendix 1

SCOPE         The audit was performed between December 2001 and May 2002. We
              assessed the Department's performance in managing the risk associated
              with remote access of unclassified information systems. Our work did
              not include a determination of whether vulnerabilities found were
              actually exploited and used to circumvent existing controls.


METHODOLOGY   To accomplish our objectives, we:

                   •    Reviewed Federal Regulations such as the Government
                        Information Security Reform Act, Government Performance
                        and Results Act, OMB Circular A-130, Departmental
                        Directives and guidance pertaining to information system
                        security;

                   •    Reviewed relevant reports issued by the Office of Inspector
                        General, the General Accounting Office, and Office of
                        Independent Oversight and Performance Assurance;

                   •    Held discussions with officials and staff at various
                        organizations; and,

                   •    Assessed organizational security practices and analyzed
                        remote access user details.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. Because of
              problems with data inputs, we questioned the validity of computer-
              processed data.

              Management waived an exit conference.




Page 8                                                      Scope and Methodology
Appendix 2

                                              PRIOR REPORTS


   •     Management Challenges at the Department of Energy, (DOE/IG-0538, December 2001).
         Among other things, the report identified information technology, performance management,
         and security and safety as the most serious management and performance challenges the
         Department faces. Consistent with the requirements of the Government Performance and
         Results Act, the Department should aggressively work to develop and implement performance
         goals and measures that directly address each of the management challenges identified in this
         report. Further, actual performance should be assessed against these goals and measures and
         be independently validated.

   •     Inspection of Cyber Security Standards for Sensitive Personal Information (DOE/IG-0531,
         November 2001). The report concluded that the Department does not always meet the
         requirements of the Privacy Act of 1974, the Freedom of Information Act (FOIA), or the
         Computer Security Act of 1987 because the Department: (1) does not have a Department-
         wide baseline criteria for protecting Privacy Act/FOIA personal information; (2) does not
         group Privacy Act/FOIA personal information with other unclassified sensitive information
         for protection; and (3) allows individual sites and program offices to develop differing
         security measures for protection of Privacy Act/FOIA personal information.

   •     The Department's Unclassified Cyber Security Program (DOE/IG-0519, August 2001). The
         report determined that while the Department has made improvements in its unclassified cyber
         security program, the program did not adequately protect data and information systems as
         required by the Government Information Security Reform Act. Problems with design and
         implementation of cyber security policy, including a lack of monitoring and specific, focused
         performance measures, contributed to these weaknesses and adversely affected the
         effectiveness of the entity-wide program. Observed weaknesses increased the risk that critical
         systems, a number of which enable delivery of essential services to members of the public and
         other Federal agencies, could be compromised or disabled by malicious or unauthorized users.

   •     The Department of Energy's Implementation of the Clinger-Cohen Act of 1996, (DOE/IG-
         0507, June 2001). The report summarized 13 information technology (IT) related Office of
         Inspector General reports. Cumulatively, these reports demonstrated systemic problems with
         the Department's approach to IT management and its method of addressing requirements of
         the Clinger-Cohen Act of 1996 (Act). Specifically, the Department had not satisfied major
         requirements of the Act to develop and implement an integrated, enterprise-wide, IT
         architecture, closely monitor policy implementation efforts, and acquire IT related assets in an
         effective and efficient manner. We attributed the problems identified, in part, to the
         Department's decentralized approach to information technology management and oversight
         and the organizational placement of the Chief Information Officer (CIO). The Department
         has recently taken a number of actions designed to improve the overall management of
         information technology resources, including making the CIO a direct report of the Secretary.



Page 9                                                                                         Prior Reports
Appendix 2 (continued)

    •     Virus Protection Strategies and Cyber Security Incident Reporting, (DOE/IG-0500, April
          2001). The Department's virus protection strategies and cyber security incident reporting
          methods did not adequately protect systems from damage by viruses and did not provide
          sufficient information needed to manage its network intrusion threat. These problems
          existed because the Department had not developed and implemented an effective enterprise-
          wide strategy for virus protection and cyber security incident reporting.

    •     Department of Energy's Consolidated Financial Statements, (DOE/IG-FS-01-01, February
          2001). The report identified three reportable weaknesses in the Department's system of
          internal controls pertaining to performance measures, financial management, and
          unclassified information system security. Specifically, performance goals, in many cases,
          were not output or outcome oriented and/or were not meaningful, relevant, or stated in
          objective or quantifiable terms. The Department also had certain network vulnerabilities
          and general access control weaknesses.

    •     Internet Privacy, (DOE/IG-0493, February 2001). The Department's method of collecting
          data from users of its publicly accessible web sites was not always consistent with Federal
          regulations. Specifically, some web sites were collecting data by unapproved or
          undisclosed means and a number of web sites did not display conspicuously located, clearly
          written privacy notices.

    •     Unclassified Computer Network Security at Selected Field Sites, (DOE/IG-0459, February
          2000). Departmental sites audited had significant internal or external weaknesses that
          increased the risk that their unclassified computer networks could be damaged by malicious
          attack. Each site evaluated had network vulnerabilities involving poor password
          management, unnecessary access to certain powerful computer services, weak configuration
          management, outdated software with known security problems, and/or problems with
          firewall configuration.

    •     Review of the U.S. Department of Energy's Information Management Systems, (DOE/IG-
          0423, August 1998). The report stated that the CIO lacked the authority and resources
          necessary to ensure development of information architectures at the program office level,
          which form the building blocks of a Departmental architecture. The report added that, as a
          result, the Department had not developed and implemented information technology
          architecture, although its Strategic Plan called for the implementation of Department-wide
          information architecture with supporting standards by January 1998.




Page 10                                                                                      Prior Reports
Appendix 3




Page 11      Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued




Page 14                 Management Comments
Appendix 3 (continued




Page 15                 Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
                                                                              IG Report No.: DOE/IG-0568

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
